<html>
<title> - CHINA'S REPRESSION AND INTERNMENT OF UYGHURS: U.S. POLICY RESPONSES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
  CHINA'S REPRESSION AND INTERNMENT OF UYGHURS: U.S. POLICY RESPONSES

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2018

                               __________

                           Serial No. 115-164

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.Govinfo.gov

                                 ______
                                 
                                 
                                 
                             _________ 

                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 32-303 PDF                 WASHINGTON : 2018                                     
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania<greek-l>   TULSI GABBARD, Hawaii
RON DeSANTIS, Florida [until 9/10/   JOAQUIN CASTRO, Texas
    18] deg.                         ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah
VACANT

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Adrian Zenz, Ph.D., independent researcher.......................     9
Mr. Nury Turkel, chairman of the board, Uyghur Human Rights 
  Project........................................................    21
Justin Jacobs, Ph.D., associate professor, Department of History, 
  American University............................................    33

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted S. Yoho, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on Asia and the 
  Pacific: Prepared statement....................................     3
Adrian Zenz, Ph.D.: Prepared statement...........................    11
Mr. Nury Turkel: Prepared statement..............................    23
Justin Jacobs, Ph.D.: Prepared statement.........................    35

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Ted S. Yoho:
  Amnesty International report titled, ``China: `Where Are They?' 
    ''...........................................................    54
  Letter dated September 26, 2018, from Amnesty International to 
    the Honorable Ted S. Yoho and the Honorable Brad Sherman, a 
    Representative in Congress from the State of California......    62
Adrian Zenz, Ph.D.:
  Support Document #1............................................    66
  Support Document #2............................................    74
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    82


  CHINA'S REPRESSION AND INTERNMENT OF UYGHURS: U.S. POLICY RESPONSES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 26, 2018

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the subcommittee) presiding.
    Mr. Yoho. This hearing will come to order.
    Good afternoon, and thank you all for joining us today for 
a topic that does not get the attention it deserves in 
Congress.
    The word ``dystopia'' is frequently used to describe the 
Chinese Communist Party's repression in the northwest of China. 
There is good reason for this. What's happening there should be 
confined to science fiction but, unfortunately, it's not.
    The party calls this region Xinjiang, and those who live 
there sometimes refer to it as East Turkestan. The Uyghurs, a 
Turkic Muslim people, have historically been the region's 
majority population and remain a plurality.
    Xinjiang falls along the Silk Road. Its capital is closer 
to Kabul than Beijing, and it remains culturally and ethnically 
distinct from China.
    The People's Liberation Army brought Xinjiang into modern 
day's People's Republic of China in 1949 by invasion. Today, 
the party is seeking to eliminate Xinjiang's uniqueness using 
methods ripped straight from fiction.
    Authorities have turned the region into a high-tech 
militarized police state using cutting-edge technology to 
subject normal people to pervasive surveillance, including AI 
facial and voice recognition and forced genetic sampling.
    Authorities compile vast amounts of data on individuals and 
assign them arbitrary scores, which can drastically alter their 
lives. In some areas, there are police outposts every few feet. 
Information, communication, and travel are restricted.
    Astoundingly, about 1 million people are being detained in 
rapidly expanding networks of concentration camps where they 
are forced to undergo so-called political reeducation that can 
only be described as brainwashing, brutality, torture, and 
death.
    For those who are targeted, even fleeing will not keep them 
safe. PRC authorities surveil them abroad and punish their 
families to coerce their silence or force their return.
    The party has used the specter of terrorism to excuse its 
abuses and scapegoat the victims. But the truth is the victims 
are men and women, young and old, from every walk of life.
    They are not targeted based on extremism. They are targeted 
based on their religion and ethnicity. The party's so-called 
strike hard campaigns are specifically intended to surveil, 
profile, punish, and round up the Uyghurs, Kazakhs, and any 
Turkic Muslim whose lives are distinct from the party's vision 
of what it means to be Chinese.
    The CCP's--the Chinese Communist Party's--actions are 
transparently seeking to destroy normal Islamic religious 
practices, the Uyghur culture and language, and even the 
genetic concentration of Uyghur heritage in the Xinjiang.
    Chillingly, the party says their objective is ethnic 
harmony. Ethnic harmony sounds nice. Based on their action, it 
seems that ethnic harmony means that no one is allowed to be 
different from the atheist, Mandarin-speaking, ardently 
socialist Han nation.
    The greatest tragedy of the 20th century occurred when the 
world stood by as cruel nationalist parties targeted an ethnic 
minority as part of an evil plan to re-engineer society.
    Whether it is the genocide of Rwanda, Sudan, or, as the 
full committee highlighted today, in Burma, the world has a 
poor record of stopping genocide or ethnic cleansing.
    We did have that hearing this morning and it is just 
unconscionable that we talk about never again will we allow 
what happened under the Hitler regime, yet here we are, 70 
years, roughly, later and it's happening over and over again.
    It is my hope that we can help shine a light on what could 
be the next of these blights on humanity as another 
totalitarian regime is building crematoriums near its 
concentration camps.
    We must speak out with the loudest possible voice. Can 
there be a clear warning sign? We have been down this road too 
many times. The sort of human rights violations that the CCP is 
perpetrating on a massive scale in this district should 
disqualify the PRC from global leadership.
    Such abuses contravene the most fundamental rights and 
basic personal freedoms. Yet, China remains one of the world's 
most influential countries, and because of this, few on the 
international stage are willing to speak out about the PRC's 
repression and internment of the Uyghurs and others.
    My hope is that today, with the assistance of our expert 
panel, we can begin to address this disparity and work toward 
options for the overdue U.S. policy response to this crisis.
    And with that, members present will be permitted to submit 
written statements to be included in the official hearing 
record.
    Without objection, the hearing record will remain open for 
5 calendar days to allow statements, questions, and extraneous 
material for the record, subject to length limitations and 
rules, and the witnesses' written statements will be entered 
into the hearing.
    I will now turn to the ranking member for any remarks he 
may have.
    [The prepared statement of Mr. Yoho follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                              ----------                              

    Mr. Sherman. Thank you, Mr. Chairman.
    Today is a day when we focus in this room on China's war 
against Muslims. This morning in this room we heard how China 
is aiding Myanmar--Burma--and their military in the either 
genocide or close to genocide of the Rohingya and the ethnic 
cleansing of hundreds of thousands or 1 million individuals who 
have known no other home other than Burma.
    And this afternoon, we focus on China's domestic policy. 
China is repressing its Uyghur population in the province of 
Xinjiang on a massive scale.
    The Chinese Government has, as noted in a recent U.N. 
meeting, turned Xinjiang into something resembling a massive 
internment camp shrouded in secrecy--a sort of no-rights zone.
    I look forward to learning more from our witnesses. What 
China is doing there is terrible. I don't know--I'd have to 
learn more--before I'd endorse the chairman's use of the words 
``extermination'' or ``crematorium.''
    But, clearly, what we are seeing is hundreds of thousands, 
perhaps 1 million, being held in so-called reeducation camps.
    The people running the government in Beijing are the sons--
not so much the sons and daughters, but sons of those who were 
put into reeducation camps during the Cultural Revolution.
    The fact that they would then turn and put 1 million people 
into reeducation camps, concentration camps, detention camps, 
in this case pretty much solely because of their ethnicity and 
religion, is absolutely outrageous.
    An article in ``Foreign Policy'' noted that the official 
purpose of the internment camps is to ``purify people's 
thoughts,'' eliminate extremism, and to instill support for the 
Communist Party.
    The idea that you could win friends among a people by 
interning them strikes me as bizarre. Beyond this forced 
indoctrination, the internment camps allow police to physically 
remove people from society and then say, well, nobody on the 
streets of Xinjiang opposes the Communist Party.
    A report by Human Rights Watch mentions that in 2014 when 
China launched its so-called ``strike hard'' campaign against 
``violent terrorism,'' the number of people arrested in 
Xinjiang has increased threefold compared to the previous 5-
year period.
    Chinese repression dramatically scaled up in 2016 when the 
Communist Party secretary in Tibet relocated to assume 
leadership in Xinjiang.
    China is going after Uyghurs living abroad. There are 
accounts of Uyghurs being sent back by Middle East countries 
where they worked or lived in violation of international 
obligations, with these Middle Eastern countries knowing that 
those Uyghurs will be interned when they are sent back to the 
clutches of the Chinese Government.
    Further, China suppresses the religious and cultural rights 
of Uyghurs, as Amnesty International points out. Its 
regulations on religious affairs ban many religious activities. 
This allows China to suppress basic religious rights.
    The Chinese Government limits the use of the Uyghur 
language. China detains ethnic Uyghur writers and Web sites, 
editors, et cetera. All these Chinese efforts to weaken could 
lead to the elimination of Uyghur cultural identity.
    The ethnic balance in Xinjiang has changed dramatically. In 
1949, that province was only 6 percent ethnic Chinese. Now it's 
40 percent of the population and 75 percent of the capital.
    It's time to call out China. In August, I joined the House 
and Senate colleagues in a letter to Secretaries Pompeo and 
Mnuchin regarding this issue.
    We urged the application of the Global Magnitsky Act 
sanctions against senior Chinese officials who oversee mass 
detention of Uyghurs.
    It called for sanctions against businesses assisting the 
Chinese officials in mass detention, and asked the State 
Department to condemn these abuses.
    We ought to especially call out the Muslim countries that 
are saying nothing. Whether that be Turkey, Pakistan, the Gulf 
States, it is simply outrageous that they do so little to help 
the Rohingya and turn their back completely on the Uyghurs.
    America should be given credit for protecting Muslims as we 
did in Bosnia and Kosovo. Now we are the number-one aid source 
for the Rohingya and we are the leading voice for the 
protection of Uyghurs.
    And I notice that at the United Nations if Israel builds 
one apartment building--huge fireworks, whereas when China 
moved millions of ethnic Chinese into this province--not a 
peep. And I am not saying that every bit of construction done 
by Israel is consistent with a two-state solution.
    But it is interesting to see how a single apartment 
building can cause Muslim nations to speak in the most extreme 
terms and then be silent on what China is doing, both in its 
own borders and with regard to the Rohingya.
    I yield back.
    Mr. Yoho. I think this meeting is important because we are 
going to bring that out, you know, the questions about whether 
or not there are crematoriums, is correct.
    I think that'll come out in this. The Uyghurs, we know, 
prefer burial. China prefers cremation, and we will talk more 
about that.
    But at this time, with no objections I'd like to turn to 
Ms. Comstock for opening remarks.
    Ms. Comstock. Thank you, Mr. Chairman and Ranking Member. I 
really appreciate you holding this hearing today.
    As both the chairman and ranking member have noted, this is 
something really important that needs a lot more attention. I 
am sorry that this doesn't get more attention. But I appreciate 
you making the record here today and exploring this further.
    I certainly associate myself with all the remarks 
previously made and talk about the horrible atrocities 
occurring in northwest China where reports have surfaced that 
Uyghurs and Kazakhs have been detained in reeducation camps, 
forcing Muslims to renounce Islam and embrace the Communist 
Party.
    Additionally, reports have been made by reporters that have 
made it into the region as well as those who escaped the camps 
and gone abroad--that Uyghurs are subject to torture, medical 
neglect, solitary confinement, sleep deprivation, and other 
deadly forms of abuse at these reeducation camps.
    As a member of the Tom Lantos Human Rights Commission and 
as somebody who worked with my predecessor, Congressman Frank 
Wolf, who I know worked with both of you on these important 
issues, it is extremely important to me that we bring greater 
light to these human rights abuses internationally, and 
especially when they regard suppression of religious freedom.
    One of my constituents is here today. Ferkat Jawdat is in 
attendance with his sisters and other members of his family. He 
is a U.S. citizen who has his home in Chantilly, Virginia, 
where he works for a government contractor providing support to 
the Center for Medicare and Medicaid Services, and we thank him 
for his service and we thank him for being here today. He also 
has a 1-year-old child, a daughter.
    Thank you for being here today. However, his life has 
become a living nightmare since February 2018, when his mother 
was sent to one of these reeducation camps.
    He now does not know about her whereabouts, when she will 
be released, or why she was taken. You can imagine that 
nightmare, Mr. Chairman, and that's why I thank you so much for 
having this hearing and highlighting this.
    This is real to the people in my district and I know 
throughout the country. He worries that she is being tortured, 
or worse, fears that she may already have been killed.
    We are working to bring this to the attention of Secretary 
Pompeo, Ambassador Branstad, and Ambassador Cui asking for 
answers regarding his mother.
    We know he's not alone in his suffering. At least 1 million 
people have been detained in camps and Uyghurs account for 21 
percent of the arrests, despite making up only 1.5 percent of 
the population. Clearly, this is a religious freedom issue and 
atrocity.
    I am so grateful for this hearing today so that we can shed 
much-needed light on this issue and work to find real solutions 
to this problem and the very human and tragic outcomes that we 
are seeing here, and I thank you again for being here today.
    Mr. Yoho. I thank the gentlelady for her comments, and this 
is something that we want to expose and the best way, you know, 
whenever these atrocities go on, is to expose them--expose them 
through witnesses, expose them through the media, and keep 
talking about them until we can get enough outrage from people 
to come out, you know, out of reeducation camps.
    I think it's something that should scare us. I think we 
have all heard of George Orwell's book, ``1984.'' He missed the 
mark by about 34 years. You know, he talked about this, and to 
hear what's going on. I just got back from Mongolia, South 
Korea, and Japan--I'm still not sure what country I'm in--but 
to hear what the Chinese wanted to do in the Asia Pacific 
region with the 5G network is something they can offer to other 
leaders of other countries and say, look, what we can do, we 
can monitor your systems, we can rank your systems to see if 
they are a good Communist Party member or a bad one, and if 
they don't reach a certain level we can send them to 
reeducation camps.
    And I think that's going to come out more in this hearing, 
and so what I'd like to do now is--we are honored to have you 
guys here and we are going to have you guys here and we are 
going to have you--I am going to introduce you and then you'll 
have 5 minutes to speak, and I think you all know how to use 
the system there.
    Turn your microphone on. The lights will go green, yellow, 
and red. It's 5 minutes.
    And we have Dr. Adrian Zenz, a noted expert on China's 
policy toward minority groups--thank you for being here; Mr. 
Nury Turkel, chairman of the board at the Uyghur Human Rights 
Project; and Dr. Justin Jacobs, an associate professor in the 
Department of History at American University.
    And before we start, does the gentleman from California 
have an opening statement?
    Mr. Rohrabacher. Yes, I do, and let me apologize. This is 
one of the more frustrating parts about being a Congressman. We 
have got three hearings, all of which are really important, at 
the same time.
    Mr. Yoho. And I've got a bill on the floor I am supposed to 
be talking about. Don't worry about it. [Laughter.]
    Mr. Rohrabacher. Oh, my gosh. But the people--the Uyghurs 
and the people of China should get the message that we are 
willing. Even though we have really busy days we are not too 
busy to come here to talk about their plight and what's going 
on in China and the Muslims that are being murdered by the 
Government of Burma. They call it Myanmar now.
    But we have that type of slaughter of Islam. You have the 
slaughter of Islam in China as well. We need to be--make sure 
that the Muslim population of the world knows that we are not 
against their religion and we are not against people who 
practice that religion.
    We are against the radical Islamic terrorists who, 
basically, attack the United States. But people who live and 
have lived in their societies for a long time throughout the 
planet, when they are under attack, which is what's happening 
in China, we are on the side of those people, whatever their 
religion is, and in this case they happen to be Muslims.
    And the Uyghurs have played a very important role over the 
years because we have known them. I've met them. They are a 
very respectable part of that culture in that part of the 
world.
    But China, the Government of China today is behind, of 
course, the slaughter of the Muslims down in Burma and the 
Government of China, of course, is doing everything to do to 
stamp out the Uyghur movement in China.
    So with that said, I hope that our friends throughout the 
world get the word and understand what's happening today. We 
care about Muslim people in China. We care about them in Burma. 
We care about them when they are under attack and it is not--
and we don't want just war--this war mentality between Islam 
and Christianity.
    So, Mr. Chairman, by holding this hearing today, I 
appreciate and I applaud you for sending this positive message 
toward this big hunk of the world that we can work together to 
make it a better world and respect each other's rights.
    So I will be running back and forth now between these two 
and three hearings that I am involved in. But I will be 
watching on the monitor when I am not here and reading your 
testimony otherwise.
    Thank you, Mr. Chairman.
    Mr. Yoho. Thank you, Mr. Rohrabacher, and if you get a 
chance, talk on my bill on the House floor. [Laughter.]
    Dr. Adrian Zenz, please go ahead.

    STATEMENT OF ADRIAN ZENZ, PH.D., INDEPENDENT RESEARCHER

    Mr. Zenz. First, I would like to thank the chairman, the 
ranking member, and the other members of the subcommittee for 
inviting me to testify about the situation--what China refers 
to as the Xinjiang Uyghur autonomous region.
    The research performed by myself and others conclusively 
shows the existence of a large-scale extrajudicial detention 
network for the purpose of subjecting Xinjiang's Muslim 
minorities, but also some ethnic minority Christians, to 
intensive political reeducation and indoctrination procedures.
    The evidence I gathered largely comes from the Chinese 
Government itself--reports, budgets, bids, recruitment notices, 
along with corroborating evidence from satellite images.
    These are the account of my research findings including 
large-scale police recruitments and the installation of 
extensive surveillance networks, provided in the written 
statement.
    All the information we have consistently points toward the 
fact that Xinjiang's unprecedented securitization and 
reeducation campaign was inaugurated by the region's party 
secretary, Chen Quanguo, in spring 2017.
    In this campaign, up to 11 to 12 percent of Xinjiang's 
Muslim minority adult population has been detained in 
reeducation camps, at times referred to as ``vocational skills 
training,'' or simply, ``training institutions.''
    Public bid documents state that some of these so-called 
training facilities are heavily secured with high walls, 
fences, barbed wire, security cameras, reinforced doors and 
windows, and other security features typically found in 
detention centers or in prisons.
    Recruitment notices likewise starting in spring 2017 
indicate an unusually large intake of teachers for what is 
simply referred to as training facilities that only mandate a 
junior or senior secondary education, along with Chinese 
language skills.
    Typically, vocational skills teachers in China as well as 
in Xinjiang are required to possess a tertiary degree in the 
relevant subject.
    Overall, it is reasonable to assume that Xinjiang's current 
reeducation campaign exceeds the scale of the entire former 
national reeducation through labor system, a system that was 
abolished in 2013 because the government itself considered it 
to be no longer appropriate for a modern society governed by 
the rule of law.
    It should be made clear that China has faced a credible 
terrorist threat from Uyghur resistance groups and that 
measures against actual religious extremism are certainly in 
order for any nation facing such challenges.
    However, China's extra-legal internment of large shares of 
Xinjiang's Muslim minority population is tearing apart the 
lives of hundreds of thousands of innocent people who have no 
splittist or extremist intentions and pursue harmless and 
appropriate cultural and religious practices.
    Chen Quanguo's reeducation campaign is destroying the very 
fabric of Xinjiang's minority societies: Separating families, 
leaving children orphaned, instilling fear and resentment, and 
sowing the seeds of hate.
    In the name of combating terrorism, this campaign 
constitutes a monstrous crime against humanity on a scale and 
level of sophistication that has only rarely been witnessed in 
modern history.
    Seasoned scholars who have studied the region for decades 
are appalled at what they perceive to be an unprecedented 
repression with unforeseeable long-term consequences.
    My recommendations are as follows: Firstly, that the United 
States Government investigates whether American companies are 
involved in supplying technologies and products used in Chinese 
surveillance or other security-related systems that may also be 
deployed in Xinjiang. If so, the export of such products to 
China should be stopped.
    Secondly, to sanction the responsible Chinese officials, 
for example, through the Global Magnitsky Act. The main effect 
of such sanctions may not necessarily be the sanctions 
themselves but the symbolic force they exert and the resulting 
increase in public awareness.
    Thirdly, that the government would regularly and 
consistently speak up in regards to this issue in all relevant 
contexts.
    Being aware of the fact that the suppression of core 
aspects of minority identities in Xinjiang is reflective of a 
wider campaign to systematically curtail social and religious 
freedoms among both minorities and the Han majority throughout 
China.
    Thank you.
    [The prepared statement of Mr. Zenz follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Yoho. Thank you for your testimony.
    Next, we will go to Mr. Turkel.

  STATEMENT OF MR. NURY TURKEL, CHAIRMAN OF THE BOARD, UYGHUR 
                      HUMAN RIGHTS PROJECT

    Mr. Turkel. Thank you, Mr. Chairman, Ranking Member, and 
members of the subcommittee, for inviting me to attend this 
year. It's an honor to be here before you.
    The Uyghur Human Rights Project commends the subcommittee 
for convening this hearing on the U.S. policy response.
    We would also like to express our appreciation to the 
subcommittee members who have co-signed bipartisan letters 
calling for sanctions and urging pressure for the release of 
the relatives of Uyghur American citizens.
    The human rights emergency facing Uyghur people in China 
requires an urgent response. For decades, the Chinese 
Government implemented policies of racial discrimination, and 
criminalization of Uyghurs' distinct ethnic and religious 
identity.
    In the 2 years since the new party secretary took office, 
we have seen how these policies paved the way for the 
dehumanization of the Uyghur people. This should raise an 
urgent alarm about what is next for the Uyghur people in China.
    It is also important to be clear about the Chinese 
Government's claim to be carrying out a counterterrorism 
campaign, which is nonsense.
    Prior to 9/11, China's Government justified repressive 
policies by claiming to be fighting separatism. Hundreds of 
political prisoners were locked away for expressing their 
identity or peacefully protesting government abuse and 
corruption.
    After 9/11, the same policies were suddenly recast as 
counterterrorism. Today, it's very clear that these policies 
have nothing to do with security concerns.
    The most obvious evidence is the large-scale facilities 
being built to keep Uyghur children under state control from 
preschool age. As we speak, millions of Uyghurs don't know if 
they will ever see their parents, sons, daughters, their young 
nieces or nephews, ever again.
    Finally, United States Government must respond vigorously 
to threats and retaliation against the American citizens of 
Uyghur origin on U.S. soil.
    It is time to act. My recommendations for Congress are as 
follows.
    One, to guide policy through the government we urge the 
subcommittee to introduce an abiding resolution endorsing an 
urgent U.S. policy response to the Uyghur crisis. The long 
overdue Uyghur Policy Act is needed to definitely state U.S. 
support for Uyghurs' civil and political rights and to mandate 
adequate measures to reverse the current crisis.
    The Congress should also press for an immediate 
congressional fact-finding visit to the Uyghur region. 
Ambassador Branstad should personally lead efforts for the 
release of the Uyghur American citizens' relatives in China.
    We also endorse the enforcement of the Magnitsky Act and 
going after the companies' individuals assisting with China's 
state security agencies.
    Congress should also review U.S.-China law enforcement 
cooperation. American officials need to use this channel to 
vigorously raise the shocking treatment of Uyghurs by China's 
security forces.
    Law enforcement agencies should also investigate threats 
and retaliations carried out against Uyghur Americans and other 
Uyghurs living in the United States.
    The United States should publicly affirm its policy not to 
extradite or deport Uyghurs living in the U.S. and urge other 
governments to join Germany and Sweden by publicly announcing a 
halt to all deportation of Uyghurs to China.
    Congress should appropriate funds to support Uyghur human 
rights and civil society groups working to advance human rights 
and environmental protection in their homeland.
    The U.S. delegation at the United Nations should have 
strong congressional backing for vigorous action. China has 
been in the hot seat for its crimes against humanity in the 
Uyghur region exactly once in the last 19 months, which was 
August 10th at the CERD review panel in Geneva.
    Going forward, the United States must field a strong 
delegation at China's UPR on November 6th.
    Finally, we know of Uyghur students who cannot pay their 
tuition at American universities because their parents are 
detained in China. In this humanitarian urgency, Members of 
Congress should support these students' request for tuition 
waivers and scholarships.
    In conclusion, I would like to reiterate my gratitude to 
the U.S. Congress for the bipartisan support and its effort to 
hold human rights abusers in China to account.
    Thank you again for the opportunity to shine more light on 
the tragic situation facing the Uyghur people in China.
    Thank you.
    [The prepared statement of Mr. Turkel follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Yoho. Thank you, Mr. Turkel.
    Dr. Jacobs.

    STATEMENT OF JUSTIN JACOBS, PH.D., ASSOCIATE PROFESSOR, 
           DEPARTMENT OF HISTORY, AMERICAN UNIVERSITY

    Mr. Jacobs. Distinguished members of the committee, thank 
you for holding this hearing on China's policies in Xinjiang 
and for inviting me to testify.
    From 1949 to 2001, the Chinese Communist Party generally 
regarded the mostly Muslim population of the Xinjiang Uyghur 
autonomous region as deserving of some form of cultural 
autonomy within China.
    These longstanding views have come under sustained assault 
over the past 15 years, during which time China has been 
gradually accelerating its policies of cultural assimilation, 
intrusive surveillance, and unlawful detention of the Uyghur 
ethnic group, with the devastating intensification of the more 
coercive aspects of these measures in the past 2 to 3 years.
    Since 2009, a series of violent incidents appears to have 
convinced the Chinese Communist leadership that it must solve 
its so-called Uyghur problem in Xinjiang once and for all.
    The result is the oppressive security apparatus, arbitrary 
system of indefinite detention, and coercive assimilationist 
measures now on display in Xinjiang, all of which have been 
institutionalized and normalized in the past 2 years.
    Ever since the appointment of Chen Quanguo as party 
secretary of Xinjiang in 2016, surveillance and assimilationist 
policies previously tested in Chen's prior posting to Tibet 
have been greatly expanded and accelerated in Xinjiang.
    With regard to cultural assimilation, the elimination of 
bilingual education in minority languages such as Uyghur, a 
policy previously applied only at the university level, has now 
been instituted in primary and secondary schools as well.
    The state also provides new financial incentives for Han 
men to marry Uyghur women, and Uyghurs who wish to sell their 
property must apply for government permission to do so.
    Mosques are frequently closed down without explanation and 
Islamic insignia, such as the crescent moon, have been removed 
from those that remain open.
    The euphemistic political reeducation schools are now 
believed to be responsible for the arbitrary and indefinite 
incarceration of anywhere from several hundred thousand up to 1 
million Uyghurs, or between 3 to 10 percent of the entire 
population. It is clear that all members of the Uyghur ethnic 
group are being considered for mass internment in these camps. 
Leaked documents and press reports reveal the existence of 
mandatory quotas for internment.
    Chen Quanguo and Beijing appear to be committed to the 
permanent institutionalization and further expansion of these 
reeducation camps, with evidence of massive construction 
projects continuing to leak to the outside world.
    Chinese leaders believe that their approach in Xinjiang is 
working. As a result, we should not expect to see any voluntary 
retrenchment or scaling back of the new measures on the part of 
Beijing.
    Indeed, this frightening dystopia did not originate in 
Xinjiang and it will not end in Xinjiang. The United States is 
uniquely positioned to take on a global leadership role 
concerning this crisis.
    Not only have the major global powers mostly failed to 
confront China on its treatment of the Uyghur people, but even 
the leaders of majority Muslim countries have until recently 
tended to shy away from raising the issue with Beijing.
    Going forward, I believe that there are four policy options 
that may help to ameliorate a few of the worst abuses of the 
system and encourage Beijing to reevaluate its role in 
perpetuating the human rights crisis on a scale not seen in 
China since the days of Mao Zedong.
    First, in accordance with the Magnitsky Act, the United 
States should consider the adoption of sanctions against key 
members of the Chinese Communist Party associated with the 
implementation of the excessive and indiscriminate policies in 
Xinjiang.
    Second, the United States should call for the release of 
the hundreds of thousands of Uyghurs who have been unlawfully 
and arbitrarily detained in the so-called ``political 
reeducation schools'' and other extralegal facilities in 
Xinjiang.
    Third, the United States should urge the Chinese Communist 
leadership to avoid excessive and indiscriminate incarceration 
and surveillance measures that target entire religious and 
ethnic groups within China.
    And fourth, the United States should encourage China to 
uphold the provisions in its own constitution that provide for 
the cultural, linguistic, and religious autonomy of its 
minority groups.
    Thank you, Mr. Chairman and committee members, for your 
attention and consideration.
    [The prepared statement of Mr. Jacobs follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                              ----------                              

    Mr. Yoho. I appreciate all of your comments, and I think 
your last statement is how China's constitution says they 
should incorporate all this and they should be doing all this, 
but as we see over and over again, China leads by lie, deceit, 
and coercion.
    They say one thing, they do something else. It's like when 
they were telling President Obama in the Rose Garden that, we 
are not militarizing the South China Sea on reclaimed lands 
that we cannot call islands because islands denote ownership--
it's reclaimed lands--that we are not militarizing them, and we 
see over and over again they speak deception while they do 
underhanded things.
    Very dangerous place to be, and, again, I can't think of 
anything more Orwellian on the planet than what China is doing.
    I think you guys have all seen this Radio Free Asia 
report--Xinjiang rapidly building crematoriums to extinguish 
Uyghur funeral traditions--to extinguish Uyghur funeral 
traditions. It's a very disturbing report when you read through 
this about what they are doing.
    It says, amid concerns over expansion of the burial 
management centers in XUAR, or Xinjiang, a job posting listed 
on the official government Web site for the region's capital, 
Urumqi, last month called for 50 security personnel with above 
average health who are physically and mentally fit, 
exceptionally brave, to work in the crematorium located in the 
city's district for a salary of more than 8,000 yen and that is 
the U.S. equivalent of $1,215 per month.
    I think it's kind of interesting--50 security personnel of 
above average health who are physically and mentally fit to 
work in a crematorium.
    I think what we are seeing here is a repeat of what we've 
seen too many times in history, and shame on us, shame on the 
free world, to turn a blind eye and not stand up to this.
    And how do you stand up to it? Can one nation stand up to 
it, or does it take the world community realizing this, define 
it for what it is? And, again, we've seen this in Syria--
400,000-plus people have been slaughtered.
    We see what's going on with the Rohingya being slaughtered, 
and we see what China is doing, stepping up to create a pure 
race. Hitler wanted the Aryan race, obviously, and then we see 
Xi Jinping, clearly articulated underlying in the Xinjiang 
region where he said the aim of liberating thought is to better 
standardize thought.
    Then he goes on and says in the speech at the nineteenth 
CCP National Congress he addressed the need for ethnic harmony 
to keep China on a path to success--ethnic harmony--we must do 
more to safeguard China's sovereignty, security, and 
development interests and staunchly oppose all attempts to 
split China or undermine its ethnic unity and social harmony 
and stability.
    And I think those are very clear things. They want 
everybody thinking the same way on the same page, and that 
would be awesome if we could do that in every culture.
    And if you believe in what we stand for in this country 
with our Constitution--that rights come from a Creator, not 
from government--that we institute government--we, the people, 
do--to protect our God-given rights, wherein the Chinese party 
they view the role of the citizen to serve the Communist Party.
    There is no higher authority in life in China than the 
Communist Party, and those that aren't following what the 
Chinese Communist Party says need to be sent to re-thought 
camps or reeducation camps and, henceforth, it requires to have 
crematoriums for those that don't and so they can extinguish 
that.
    What is the PRC's vision for ethnic harmony? We'll start 
with you, Dr. Zenz. Am I off on this or are we seeing a repeat 
of Adolph Hitler, in a different language?
    Mr. Zenz. My personal opinion on this issue, Mr. Chairman, 
is that China considers itself as a multi-ethnic nation or even 
empire in the past and under current CCP leadership.
    It's a superficially diverse multi-ethnic Chinese nation 
under the leadership of Chinese culture. In this context, China 
does not have any interest to destroy or eliminate an ethnic 
group but, rather, to integrate and to assimilate.
    It's my belief that we are not looking at an intentional 
genocide in terms of the large-scale killing of an ethnic 
group. What I perceive is very--what I perceive is very 
consistent with a Communist practice to try to change a people.
    Here we see a Communist attempt to change a people 
particularly away from religion, which is not only limited to 
Uyghurs but also to other religious groups in other parts of 
China.
    With the Uyghurs it's being done with particular intensity 
due to the sensitive location and the fact that violent 
incidents have occurred.
    And on the second line we also see an attempt to ethnically 
and linguistically assimilate a people into the core culture of 
the Chinese nation, which is the Han Chinese culture, which 
permits a certain remnant of ethnic culture to remain.
    People can speak their language, to an extent. They can 
keep harmless cultural customs, although the space for that has 
been shrinking under the current Chinese regime. There was much 
more space for this under previous Chinese regimes.I21As a 
result, I believe we are looking at these camps at political 
reeducation. These camps will naturally have higher mortality 
rates due to their conditions.
    People who are sick and elderly or suffer from mental 
conditions will, naturally, die quicker. We will have, 
therefore, higher mortality rates due to the conditions of 
these camps.
    I do not believe that there is an intent to systematically 
move into mass killing. Of course, I can be proven wrong. But 
if you ask my opinion, that's what it is.
    I also believe that the crematoria that are being built 
that you refer to, all of China is moving toward cremation by 
2020, not just Xinjiang.
    Of course, this has some very convenient side effects 
besides saving room, of course, in a country with a high 
population density, although Xinjiang autonomous region does 
not have a high population density.
    It does restrict and eliminate religious practice related 
to funerals. Many religions, of course, including Islam have 
very important funeral rites of spiritual and religious 
importance.
    So this is another way to encroach upon a territory 
occupied by religion, and another aspect is, of course, if 
people do die in reeducation camps or the detention facilities, 
it is very convenient to cremate them because you do not have 
anybody attending the funeral. You can then choose to tell and 
inform the family members at a later stage.
    Mr. Yoho. Let me--let me stop you there for the sake of 
time.
    Mr. Zenz. Yes. I am done, in any case.
    Mr. Yoho. Okay. Thank you, and I appreciate that and I want 
to come back to that.
    At this time, we'll go to the ranking member, Mr. Sherman.
    Mr. Sherman. Thank you. I am glad that--when I heard 
crematorium next to concentration or internment camps, one 
hearkens back to the Nazis where they were not cremating those 
who had died, they were using crematoriums in order to kill.
    That being said, Dr. Zenz, are there funerals and burials 
taking place in the province now or are they forcing Uyghurs to 
use cremation instead?
    Mr. Zenz. I think there is limited empirical information on 
the matter. But the evidence we have would be consistent with 
what is being sought to be implemented in the rest of the 
nation to shift toward cremation.
    Mr. Sherman. Push people in that direction.
    Mr. Zenz. Yes, which is forced. Which is forced. It's not 
voluntary, and particular in Xinjiang.
    Mr. Sherman. So I guess someone will be buried today who 
died of natural causes, but another family might be pushed into 
accepting cremation as opposed to burial or Islamic burial?
    Mr. Zenz. That is very much the trend, especially in 
Xinjiang. Yes.
    Mr. Sherman. Yeah, I'm talking only in Xinjiang.
    Mr. Zenz. Yes.
    Mr. Sherman. I don't know which witness to ask, but Turkey 
used to be an advocate for what is called East Turkmenistan. Is 
Turkey continuing to advocate for the Uyghurs or have they 
backed off? Does anyone know?
    Mr. Turkel?
    Mr. Turkel. I would be happy to answer that question. 
Before addressing your important question, I would like to 
point out the unstated goal of the Chinese Government under 
this claim that they're working to achieve social stability.
    In any--under any wildest imagination you don't achieve 
social stability by calling somebody's ethnicity or ethnic 
cultural appreciation as a tumor, religion as a mental disease. 
It makes no sense in any----
    Mr. Sherman. Okay. If you could focus on my question.
    Mr. Turkel. And then in addressing your question, Turkey 
has been historically--was historically supportive of the 
Uyghur struggle for cultural, linguistic, and historic reasons.
    In 2009, the current Turkish President said that he thinks 
what is happening in East Turkestan is sort of genocide, 
knowing the genocide word is a very sensitive word in Turkey.
    But in the last couple years, the Turkish Government has 
taken a 180 degree turn--has become very close to the Chinese 
Government. Specifically, they signed an extradition treaty and 
also the Turkish foreign minister in Beijing stated that Turkey 
will not be allowed for anti-China activities.
    Having said that, if you flip through any newspapers 
published in Turkey, you will be hard-pressed to find anything 
on the ongoing madness in East Turkestan today.
    Mr. Sherman. So they've gone from supportive to 
deliberately influencing their newspapers to not even report 
what China is doing to the--to these Turkic peoples.
    What about Pakistan? Have they been willing to speak out 
for the Uyghurs?
    Mr. Turkel. Pakistan has also had a horrible history of 
collaborating with China.
    Mr. Sherman. Which Muslim government or----
    Mr. Turkel. Unfortunately----
    Mr. Sherman [continuing]. A government of a Muslim country 
has been the loudest and most dedicated to protecting the 
Uyghurs?
    Mr. Turkel. Unfortunately, none, as we speak. Only 
Malaysian leader Anwar Ibrahim recently expressed concern. 
That's pretty much about it.
    Mr. Sherman. Expressed concern. But none of them have 
sanctioned any Chinese leaders?
    Mr. Turkel. None, unfortunately.
    Mr. Sherman. Or sanctioned Chinese businesses? Which 
religious customs or rights is China prohibiting?
    Mr. Turkel. The--China's Government sanctions pretty much 
everything related to Islam, especially in the last 19 months.
    Mr. Sherman. So if you don't eat during daylight in 
Ramadan, what will they do to you?
    Mr. Turkel. Foreign Policy magazine listed 48 ways that 
you'd be considered an extremist in the eyes of the Chinese 
Government under this new draconian rule of regulation imposed 
April 2017 that sanctioned a normal beard, adherence to Islamic 
diet----
    Mr. Sherman. You mean eating halal food makes you an 
Islamic extremist?
    Mr. Turkel. This is under their new regulation. There are 
policy papers that have been written. Reports have been 
published on this particular issue. Foreign Policy magazine 
lists 48 behaviors that you and I----
    Mr. Sherman. And the Foreign Policy magazine is translating 
a Chinese regulation----
    Mr. Turkel. That's correct.
    Mr. Sherman [continuing]. That says you can--you are 
classified an Islamic extremist and subject to internment if 
you eat halal food?
    Mr. Turkel. Even greeting in an Islamic way. Today, Uyghur 
families cannot even say ``salaam alaikum'' as part of their 
culture.
    Mr. Sherman. So they're, basically, prohibiting the 
practice of Islam while not allowing perhaps a vague Islamic 
cultural identity and the Muslim nations of the world lift not 
a finger.
    Mr. Turkel. That's the ironic world that we find ourselves 
today, unfortunately.
    Mr. Sherman. I yield back.
    Mr. Yoho. Next, we'll go to Mr. Rohrabacher from 
California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Let me ask the panel, didn't Mao have a period of time 
after he took over where he--was it ``let a thousand flowers 
bloom'' or something like that? Do you remember what I am 
talking about?
    And, apparently, there was--in order to calm people down 
about this new power structure in China it came off as if the--
well, it's not going to be so bad after all, and then when all 
the flowers began to bloom, meaning all the people became--
coming out and expressing what they really believed about 
communism and about life, he had mass arrests and after that 
they had, of course, that effort that happened in the '60s 
where they just--a cultural revolution and just wiped all those 
people out who had exposed themselves to something other than 
the Communist ideology.
    Well, what it sounds like to me is that what we have now--
let 1,000 flowers bloom--I was right. Okay. What we seem to be 
having now and what you're describing is that the Chinese 
Government is going through another period where it is clamping 
down in order to stamp out those forces in society, especially 
those containing religion like the Uyghurs have that part of 
their culture--they're trying to stamp that out in order to 
secure that they--themselves from any opposition based on that 
cultural difference.
    Does that pretty well sound like we are going through that 
phase? It sounds like to me, especially when we hear your 
testimony talking about how there are relocation camps and 
there are--there is an infrastructure being built to brutally 
eliminate the Uyghur tradition in that part of China--just 
eliminate it from the world.
    And so thank you for being here and giving us those 
details, and I was listening to what you had to say and I would 
say it's frightening but it's consistent with what, frankly, 
those of us who've been worrying about China and the Communist 
Government of China, although, I don't even know if you can 
call it a Communist government.
    It's just a vicious, one of the most iron-fisted 
dictatorships in the world. And whether or not--how they think 
about Marx or Lenin is irrelevant to that.
    However, when you have a group that might be opposing that 
who has a religious conviction the Uyghurs are finding that out 
now.
    But you have had--the Falun Gong, as you know, have had a 
very peaceful oriented philosophy--a spiritualist type 
philosophy. They're being brutally repressed, being murdered 
and their organs are sold to Westerners at times, and then, as 
I say, we got the--is it Rohingya down in Burma.
    The Chinese are actually the ones who have organized and 
armed the Burmese Government and the military to go down there 
and commit the genocide--the genocide that is taking place with 
the Rohingya.
    So I hope that we get the attention of some of the people 
and, number one, your suggestions, whichever one it was, about 
activating the Magnitsky Act--it's a good idea--when you have 
people committing crimes against humanity.
    I disagreed with the title, Magnitsky, but I certainly 
agreed with the substance of what that act was all about and is 
all about. We should do that. We should actually--and but most 
importantly, your testimony is as well.
    Mr. Chairman--because we've got to make sure American 
corporations aren't involved with providing the technology 
needed for this repression--this wave of repression to succeed 
in China and some of our own companies need to be held 
accountable.
    One last question--we are mentioning countries that have 
stepped forward. Has not Albania stepped forward and taken in a 
group of Uyghurs or am I mistaken about that?
    Mr. Turkel. Thank you very much. May I address your 
question?
    Good to see you, Congressman Rohrabacher. We've known each 
other quite a long time.
    Albania has not stepped up. Albania took some Uyghurs being 
detained in Guantanamo years ago.
    Mr. Rohrabacher. Right.
    Mr. Turkel. But Kosovo, interestingly enough, after the 
Ministerial that Secretary Pompeo organized several weeks ago, 
is one of the countries, along with the U.K., Canada, and the 
United States, to sign on the joint statement. That's the only 
Muslim country----
    Mr. Rohrabacher. Okay. So Kosovo has but----
    Mr. Turkel. Not Albania.
    Mr. Rohrabacher. But Albania has not?
    Mr. Turkel. Not yet.
    Mr. Rohrabacher. So--okay, I will check that out. Let me 
just note that I've been told a number of times that Albania 
and the Kosovars have been done but Albania was--in particular 
was mentioned to me. So we'll look into that.
    Mr. Chairman, that may be something the committee can 
verify and I appreciate that information.
    Mr. Turkel. Thank you.
    Mr. Rohrabacher. Thank you, Mr. Chairman, for having this 
hearing today. I am going to run to that other hearing and then 
to the vote and then to the other thing.
    So sorry I can't stay for the whole thing.
    Mr. Yoho. You will be in shape at the end of the day. 
[Laughter.]
    Mr. Rohrabacher. Okay.
    Mr. Yoho. So where do we go from here? Again, we don't 
normally have people comment. If you can give just one comment, 
and this is the only time we are going to do it. So don't 
anybody else raise your hand, and keep it short, please.
    [Off-microphone comment.]
    Mr. Yoho. Let me address that after Mr. Chabot. Thank you.
    Mr. Chabot. Thank you, Mr. Chairman. I will be very brief. 
I am trying to do two things at once here. I apologize. I was 
in the back room with a meeting with some folks from Puerto 
Rico.
    Again, I apologize, Mr. Chairman. Thanks for letting us go 
next. Let me begin by just saying, having served as the chair 
of this subcommittee for a number of years and having travelled 
through the Asia-Pacific region a number of times, I think many 
of us are very aware of China's terrible human rights record 
and the case in Xinjiang is truly Orwellian.
    Uyghurs are routinely subjected to the most extreme and, 
really, absurd surveillance. They face random checks, 
restricted freedom of movement, and they cannot travel abroad.
    Worse, authorities have made extensive use of video 
surveillance, facial recognition, and artificial intelligence 
to track every Uyghur's every move.
    Most dystopian of all, authorities also maintain detailed 
records on Uyghurs including DNA samples, eye scans, and blood 
types.
    Unfortunately, Beijing has spread its repression well 
beyond Xinjiang. Uyghurs around the world, including here in 
America, often face threats to their families at home unless 
they comply with Chinese authorities' demands and help monitor 
fellow Uyghurs.
    Beijing claims to be worried about terrorism. But every 
country faces counterterrorism challenges without locking up 
over 1 million people. And the bottom line is Beijing is 
terrorizing their Uyghur population and it's just unacceptable.
    So just a couple of questions and I would welcome any of 
the gentlemen here to respond. Over the past couple of years, 
the situation in Xinjiang has worsened considerably and we know 
that China's economic influence is quite comprehensive and can 
be pretty daunting, and Mr. Sherman got in this to some extent 
but I would like to go a little bit further.
    And I would ask to what extent has this influence caused 
other countries, particularly the--some of the larger Muslim 
population countries to overlook or refrain from public 
criticism of China's treatment of the Uyghurs?
    And I would offer that to anybody who might--Mr. Turkel, 
you might be the best person because you touched on it before.
    Mr. Turkel. There are a couple of possible ways to answer 
that question.
    One is to those Muslim countries, it appears that the 
Uyghurs happen to be the wrong type of Muslim to show sympathy.
    Mr. Chabot. You said the wrong kind of Muslim?
    Mr. Turkel. Yes, and then the other possibility is that 
China happens to be the wrong type of adversary for them to 
take on.
    And then finally, this committee holds a hearing about the 
Chinese coersive influence campaign that have been very 
effective in the Muslim countries. There was a question about 
Pakistan. Pakistan has been very supportive of Chinese efforts 
to silence the Pakistani Uyghur citizens even.
    And in the Gulf States, particularly UAE, Egypt, has a 
horrible track record of deporting Uyghur students, which has 
been also reported by various media outlets, and in Malaysia, 
in a previous administration, has also deported some Uyghurs.
    In the refugees issues they have been very, very 
cooperative with the Chinese Government. But on the moral 
issues, they have been looking the other way.
    Mr. Chabot. Thank you, and I think I've got time for one 
more question, Mr. Chairman.
    It's my understanding that some members of the Uyghur 
diaspora have been targeted by Chinese authorities and I would 
ask how have Chinese authorities sought to co-opt or coerce or 
punish members of the Uyghur diaspora around the world and 
particularly here in the United States?
    Mr. Turkel. They use two different methods. One, they use 
the remaining family members in China as leverage against the 
free Uyghurs who have citizenship in Europe and North America.
    So by using their family members, they silence public 
criticism. And then we had also recently Voice of America did a 
report on a public event here in Washington, DC. It 
specifically states that none of the Uyghurs who spoke with the 
reporter were comfortable disclosing their names.
    I can assure you that many Uyghurs today living and 
breathing in this free country are afraid of coming to this 
hearing.
    So the Chinese export of its oppression and the 
psychological damage--emotional damage, the crippling anxiety 
that they have caused is immeasurable in various communities, 
particularly in the Western societies.
    Mr. Chabot. Thank you.
    Mr. Chairman, if I could just conclude. I mean, I think 
what was just said, it's very disturbing when one considers 
that people would be fearful--people living here in the United 
States would be fearful to come to a hearing before the United 
States Congress because of what might happen across the globe 
to their relatives back home and I think that the 
administration ought to look into this and we ought to do 
everything possible to make sure that people know that in the 
United States it truly is a place to be free and one ought not 
to have to worry about their relatives being harmed back home 
from the PRC or anybody else.
    I yield back.
    Mr. Yoho. No, I think you're very spot on. But, you know, 
you look at the long arm--the reach of the Chinese Government 
now with the intelligence they have, with the technology, and 
then looking to the future, when we get closer to perfecting 
artificial intelligence and then put in quantum computing, 
that'll be light years of where we are today. The control they 
can have on society over here for the people back home, as you 
just said, they'll be afraid to speak up.
    And I find it very disturbing because, again, we've seen 
this throughout history. You know, if you don't fall in line 
with the government, we want you to report and we want you to 
report your neighbors.
    On these so-called reeducation camps--and the only place I 
know of them in modern time were in Nazi Germany, in North 
Korea, and now we see them in China--have you guys talked to 
many people that have every come out of the reeducation camp?
    I mean, what is the average time in a reeducation camp and 
how many people come out?
    Mr. Turkel.
    Mr. Turkel. Not many. Not many. We have only a handful of 
former detainees who have been speaking with Western media. 
There is a Kazakh citizen who has been testifying and told us 
the stories of an 11-month ordeal.
    He's a Kazakh citizen travelling in China and he came up 
and described his experience in those camps, and his parents 
had been taken away, and he apparently could not continue to 
live in Kazakhstan--recently had been relocated to Turkey, and 
Radio Free Asia recently went to Turkey to interview the actual 
victims of those detention facilities and their accounts have 
been heart-wrenching--going through tortuous condemnation, 
denunciation, renunciation of their identity, watching so-
called anti-separatist videos praising Xi Jinping, singing Red 
songs, very poor health conditions, diet.
    Even today--last night I read a Radio Free Asia report 
about a 31-, 32-year-old young woman who died in one of those 
detention facilities. And earlier, Radio Free Asia also 
reported an 82-year-old Islamic scholar who was apparently 
tortured to death in prison, and, as reported recently, his 
entire family had been taken away.
    And one thing that we need to point out here--the Chinese 
Government is attacking Uyghur intellectuals.
    Mr. Yoho. Sure.
    Mr. Turkel. Elites, business leaders, musicians, athletes. 
Just reported last night again by Radio Free Asia, the vice 
president of Xinjiang University, president--former president 
of Xinjiang Medical University, and the four top officials at 
Kashgar University all have been taken away.
    And the person who is in charge of educational affairs 
reportedly, by Radio Free Asia, received the death penalty, 
which is--I literally cannot come up with a better word----
    Mr. Yoho. It's just hard to comprehend.
    Dr. Jacobs, anybody else, have any comments on that? Dr. 
Zenz?
    Mr. Zenz. If I may go ahead--I would add to this that the 
information we have on this is fairly limited. But what we do 
have is very consistent. The information is consistent that 
people go in. More and more people go in. Very few people go 
out. Numbers are increasing.
    I should also point out that in 2014 and 2015, the 
reeducation system for de-extremification grouped Uyghurs into 
four groups, and the most hardened, stubborn, and dangerous 
received 20 days of reeducation.
    These days, it's unread of that anybody would be detained 
on no crime at all, no suspicion, no charge, no nothing 
whatsoever, and be released in--as quickly as 20 days. It's 
unheard of.
    Mr. Yoho. Yes. I just find it extremely frightening.
    Dr. Jacobs, do you have any other comments?
    Mr. Jacobs. The only other evidence that we've had are from 
people who have come out and they then toed the party line as 
well and you will get this utopian account of how great the 
camps are.
    Mr. Yoho. Right.
    Mr. Jacobs. And they'll come out saying, you know, this is 
necessary. The only way you're going to get contrary testimony 
to that is by people who have been able to leave China and are 
not afraid of family members back home suffering repercussions.
    Mr. Yoho. Right. I want to address our audience back there 
that wanted to make a statement. Unfortunately, I can't do that 
because we didn't have prior permission from both sides.
    We'll be happy to get a statement that we can enter into 
this and maybe read it at a future one. Not to slight you or 
anything, but we are--you know, we checked on the rules and I 
can't do that.
    You know, again, I just don't want to sound like a broken 
record. We've seen this too many times in history and we see 
what China is trying to do to create a one China, one mind set, 
one culture.
    Yet, they're going after the people of Tibet, trying to 
rewrite history, trying to erase that culture. We've seen that 
in other parts of China--trying to erase that, and we see that 
with the Uyghurs.
    We see where they're going with this new technology to get 
people to toe the line. If you don't toe the line, you go to 
the reeducation camps. The way we understand it there has been 
over 1 million people put into these.
    We know the party elites that don't toe the party line are 
put into reeducation camps and we know they have over 1 million 
of those. But very few come out. It's like that song of the 
Eagles, ``Hotel California''--you can check in but you can't 
check out.
    And, you know, the thought that we are repeating those 
atrocities of the past are very disturbing and with the DNA and 
the retinal scans and things that they're tracking people, 
there's a U.S. company--Thermo Fisher--I understand that's 
involved in genetic testing equipment used for forced tests.
    Do you guys have any ideas of what Congress should do with 
any company that is involved in having their equipment involved 
in this? Sanction them, being--you know, get the word to them, 
don't participate?
    Dr. Zenz.
    Mr. Zenz. I think some companies may not fully realize what 
is going on or what it means to sell equipment to Xinjiang. 
Maybe they should be realizing by now. But I think the first 
item would be a significant awareness raising in the public and 
amongst, of course, companies.
    Elevate the issue, and then issue relevant decisions on it. 
But I think especially the publicity--the awareness--and also 
the cost involved.
    Mr. Yoho. No, I think that's a great idea and that's 
something that we can do on this committee, and if you guys are 
aware of any companies involved in their equipment being used 
in this, and it's like you said--they may not even know.
    But if we can get that to them and bring an attention to 
this, I would think our companies would say, you're not using 
our equipment.
    I find this shocking, you know. This is deeper than I 
thought--the control that China is doing--and, you know, some 
of the reports I read that they talk about there is no higher 
power than the Chinese Government--no deity, nothing else.
    And I am so glad that we are in this country where we 
realize our rights come from a Creator, not from the 
government, and that China wants to turn everybody into a 
policing state and then they have the technology to make sure 
that they can follow through with that.
    What we plan to do on this committee, and it's happened so 
many times, the information we deem from you will go into 
resolutions, letters to the different companies--different 
entities that are involved in this, and we've got some good 
results out of this.
    You know, we've got the Cambodia Democracy Act that the 
cronies around Hun Sen said would never go anywhere. Their 
media attacked us. Yet, that bill got passed here in the House 
and we are going to continue to do things like that.
    The DPRK Act, the Taiwan Travel Act--those are all things 
that came out of committee hearings like this, that we put 
pressure on those countries and we are going to continue to do 
that.
    Again, I just find this very disturbing and I hope anybody 
that's listening to this that's in this audience, you see 
George Orwell's ``1984.'' It is here and it is real, and this 
is the beginning of something that could be really catastrophic 
for the rest of the world and I think this is something that we 
need to get the message out for the family members that are 
here.
    You're practicing Uyghurs and you have family members 
either left in China that are going through this process. You 
know, stay strong. Keep the word out there. Keep us--keep us 
informed.
    It's shining the light on it through committee hearings 
like this, getting on the news, and I know you put yourself at 
risk or your family at risk. But if we go down the road and we 
do nothing, we will look back and have the regrets, and we just 
want to make sure we don't make those regrets of the past.
    With that, this meeting is adjourned. I appreciate 
everybody being here and thank you for your input.
    [Whereupon, at 3:26 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               

   Material submitted for the record by the Honorable Ted S. Yoho, a 
  Representative in Congress from the State of Florida, and chairman, 
                  Subcommittee on Asia and the Pacific
                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Note: The preceding document has not been printed here in full but may 
be found at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108718

     

   Material submitted for the record by the Honorable Ted S. Yoho, a 
  Representative in Congress from the State of Florida, and chairman, 
                  Subcommittee on Asia and the Pacific
                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Material submitted for the record by Adrian Zenz, Ph.D., independent 
                               researcher
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Note: The preceding document has not been printed here in full but may 
be found at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108718

     

 Material submitted for the record by Adrian Zenz, Ph.D., independent 
                               researcher
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Note: The preceding document has not been printed here in full but may 
be found at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108718


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>
</pre></body></html>
